Monthly Update Report Data (sheet 1 of 4) Version 4.0
                Reporting Entity: Department of State ‐ OIG
              Month Ending Date: 09/30/2009

                                                     Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau              Recovery Act TAFS          Obligation Type      US Indicator         State Code       Total Obligations   Total Gross 
                                                                                                           (ONLY for grants                         Outlays
                                                                                                           and cooperative 
No.                                                                                                          agreements)
      Department of State ‐ OIG    (19‐0530 2009 \ 2010) State ‐     Contracts and          Y ‐ US                                                   $4,681 
                                   OIG ‐ Recovery Act               Orders (including 
                                                                     modifications)
  1                                                                                                                                 $37,608.12
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                         Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau           Non‐Recovery Act TAFS          Total FY 2009       Total FY 2009      Total FY 2010       Total FY 2010 
No.                                                                   Obligations        Gross Outlays       Obligations        Gross Outlays
  1 Department of State ‐ OIG      (19-0529 2009) State - OIG                 $59,536            $59,536
  2
  3
  4
  5
  6
  7
  8
  9
 10
Monthly Update Report Data (sheet 2 of 4) Version 4.0
        Reporting OIG: Department of State ‐ OIG
    Month Ending Date: 9/30/2009

   # of FTE Working on Recovery                    Testimonies:
        Newly Hired FTE 
                           0.00           Provided (monthly):     0
           (cumulative):

FTE Funded by Recovery 
                           0.00        Provided (cumulative):     0
 Act Funds (cumulative):

     FTE Not Funded by 
    Recovery Act Funds     0.50
          (cumulative):

            Complaints               Whistleblower Reprisal Allegations             Investigations          Audits / Inspections / Evaluations /         Training / Outreach
           Monthly Data                        Monthly Data                         Monthly Data                       Monthly Data                         Monthly Data
                                                                                                                                                         Training Sessions 
              Received:     2                        Received:    1                      Opened:      0       Initiated (this month):      1                                   0
                                                                                                                                                                 Provided:
                                                                                                            In Process (as of the end 
                                                     Accepted:    0                        Active:    0                                    4           Individuals Trained:    0
                                                                                                                      of the month):
                                                                                                                    Completed Final 
                                                                                                                                                         Hours of Training 
                                                                                Pending Decision:     0             Published Work         0                                   0
                                                                                                                                                                Provided:
                                                                                                                            Products:
                                                                                                                     Priority Interim 
                                                                                                                                                        Outreach Sessions 
                                                                           Closed without Action:     0             Published Work         0                                   0
                                                                                                                                                              Conducted:
                                                                                                                            Products:
                                                                                    Accepted for                  Unpublished Work 
                                                                                                      0                                    0
                                                                                    Prosecution:                          Products*:
                                                                             Prosecution Denied:      0

                                                                          Referred for Alternative 
                                                                                                      0
                                                                                       Resolution:

 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009
                                                                                                                  Completed Final 
                                                                                                                                                         Training Sessions 
              Received:     2                        Received:    1        Closed without Action:     0           Published Work        0                                      0
                                                                                                                                                                 Provided:
                                                                                                                         Products:
                                                                                                                   Priority Interim 
                                                                                     Accepted for 
                                                     Accepted:    0                                   0           Published Work        0              Individuals Trained:    0
                                                                                     Prosecution:
                                                                                                                         Products:
                                                                                                               Unpublished Work                          Hours of Training 
                                                                             Prosecution Denied:      0                                 0                                      0
                                                                                                                        Products*:                              Provided:

                                                                          Referred for Alternative                                                      Outreach Sessions 
                                                                                                      0           Cumulative Total:        0                                   0
                                                                                       Resolution:                                                            Conducted:

                                                                                Cumulative Total:     0
Monthly Update Report Data (sheet 3 of 4) Version 4.0
      Reporting OIG: Department of State ‐ OIG
  Month Ending Date: 09/30/2009

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Independent Public Accountant traveled to International Border and Water Commission (IBWC), El Paso, TX, to begin
         1
                     audit of IBWC contracts
        2            State Department's response to Contract and Grant Staffing and Qualification Survey submitted to RATB
        3
        4
        5
        6
        7
        8
        9
        10

       No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
        1            Award contract for audit of State Department's tracking and reporting of funds provided by ARRA
        2            Initiate audit of Department tracking and oversight of ARRA funding
        3            Interim report on Assessing State Dept.'s data quality process and policies and procedures due to RATB by 10/30
        4            Outreach planned in presentations to Financial management training courses at the Foreign Service Institute
        5
        6
        7
        8
        9
       10
Monthly Update Report Data (sheet 4 of 4) Version 4.0
  Reporting OIG: Department of State ‐ OIG
   Month Ending 
                 09/30/2009
           Date:

                                                                               TRAINING ACTIVITIES
                                                                                                                  Length of                             Presentation    Average
                                                 Target                            Training Location   Date of                 Number of     Cost of
      No.              Type of Training                        Title of Training                                  Training                               with Other    Evaluation
                                                Audience                              (City, State)    Training               Participants   Training
                                                                                                                   (hours)                                  OIGs         Rating
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                           Outreach
                    Organization to which                     Description of                            Date of
      No.                                     Represented at                        Location (City,
                     Outreach Provided                           Outreach                              Outreach
                                                Outreach                                State)
                                                 Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10
